National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                      December 19, 2007

TO:            Associate Administrator for Science
               Director, Goddard Space Flight Center

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on NASA’s Management of the Flight Project for the
               Geostationary Operational Environmental Satellite Series-R Program
               (Report No. IG-08-006; Assignment No. A-06-023-00)


The Offices of Inspector General (OIGs) for the Department of Commerce (Commerce)
and NASA concurrently reviewed the Geostationary Operational Environmental Satellite
Series-R (GOES-R) Program. The Program is under Commerce’s National Oceanic and
Atmospheric Administration (NOAA). NASA is responsible for managing the
development of the Program’s Flight Project, which includes the spacecraft and
instruments for the GOES-R series of satellites. We conducted our reviews because
previous GOES Program acquisitions have experienced severe technical problems,
significant cost overruns, and schedule slips that threatened continuity of coverage.
During the course of our reviews, the NASA and Commerce OIGs agreed to focus on
their individual agency’s challenges as they apply to their respective GOES-R Projects
and report separately on their review objectives. Specifically, the NASA OIG’s
objectives were to determine whether

   •   NASA’s responsible Program Management Council (PMC) was effectively
       reviewing program issues and progress and
   •   procedures and processes were in place to adequately identify, mitigate, and
       report technical risks in accordance with NASA policy.

See Enclosure 1 for details of the audit’s scope and methodology.

This memorandum addresses NASA’s ability to effectively procure, manage, and execute
NASA’s GOES-R Flight Project acquisitions in support of the GOES-R Program.
Commerce’s OIG Final Inspection Report, “Successful Oversight of GOES-R Requires
Adherence to Accepted Satellite Acquisition Practices” (No. OSE-18291, November 20,
2007), addresses whether NOAA and Commerce established effective mechanisms for
handling their responsibilities to oversee and manage the overall GOES-R Program.
                                                                                                                   2



Executive Summary
We determined that the responsible NASA PMC for the GOES-R Program was
effectively reviewing project issues and progress and that NASA’s GOES-R Flight
Project Office had procedures and processes in place to adequately identify, mitigate, and
report technical risks in accordance with NASA policy. However, we found that
NASA’s ability to effectively procure, manage, and execute the GOES-R Flight Project
was impeded by the level of oversight provided by NOAA and Commerce. Specifically,
increased management oversight by NOAA and Commerce delayed the release of
requests for proposals (RFPs) for the GOES-R spacecraft. The delays were caused by
Commerce implementing processes that were in conflict with the current Memorandum
of Understanding (MOU) between Commerce and NASA, dated June 15, 2007. The
MOU states that guidance for GOES-R Program processes will be derived from NASA
Procedural Requirements (NPR) 7120.5D, “NASA Space Flight Program and Project
Management Requirements,” March 6, 2007. The process followed for the spacecraft
RFP conflicted with NPR guidance and the resultant delays increased the risks to
GOES-R Program development and the GOES-R launch schedule.

On August 6, 2007, the GOES-R Flight Project Manager notified Commerce of those
risks in a memorandum (see Enclosure 2) issued to NOAA’s Acting System Program
Director, GOES-R Program Office, with a copy to the Goddard Deputy
Director-Technical, a member of the Goddard Space Flight Center PMC 1 responsible for
the GOES-R Flight Project. Additionally, Commerce’s OIG Final Inspection Report
makes recommendations that address Commerce’s application of NPR 7120.5D
processes to the GOES-R Program. Because the Flight Project memorandum notified
Commerce of the additional risks, and the Commerce OIG recommendations could
potentially mitigate those risks, we make no recommendations in this memorandum.
Management comments on the draft of this memorandum, issued December 5, 2007,
were not required and none were received.

Background
GOES Program Satellites. NOAA and NASA began the joint development of the first
series of satellites for the GOES Program in 1975. The satellites operate at a fixed
position above the Earth’s surface to collect and transmit environmental data used to
forecast the weather. The launch of the first satellite in the GOES Program was on
October 16, 1975. That satellite, GOES-A, became GOES-1 when it reached orbit. 2
GOES Program satellites help meteorologists observe and predict local weather events,
including hurricanes, tornadoes, thunderstorms, fog, flash floods, and other severe

1
    NPR 7120.5D changed the name of NASA Centers’ Program Management Councils (PMCs) to Center
    Management Councils (CMCs). Goddard Procedural Requirement 1060.2C, “Management Review and
    Reporting for Programs and Projects,” April 12, 2005, had not been revised to reflect the name change as
    of November 2007. As a result, we refer to the Goddard Council as a PMC.
2
    Prior to reaching orbit, the satellites are designated by a letter (e.g., GOES-A); once in orbit, the satellites
    are assigned a number (e.g., GOES-1).
                                                                                                          3



weather conditions. The satellites simultaneously provide data on a geographic region
covering the central and eastern Pacific Ocean, the contiguous 48 states, and the central
and western Atlantic Ocean. The satellites provide continuous data on weather patterns
for about 60 percent of the Earth’s surface.

The R series of GOES will represent a significant step forward in technology for both the
ground and space segments of the Program. The estimated cost for the GOES-R Program
is currently $6.96 billion, 3 which includes $3.1 billion for the GOES-R Flight Project.
The GOES-R series of satellites will provide more data faster, allowing more timely and
accurate weather forecasts. Major instruments on the GOES-R series of satellites will be
      •    Advanced Baseline Imager (ABI),
      •    Space Environment In-Situ Suite (SEISS),
      •    Solar Ultra Violet Imager (SUVI),
      •    Extreme Ultraviolet and X-Ray Irradiance Sensors (EXIS), and
      •    Geostationary Lightning Mapper (GLM).

The scheduled launch date for the first satellite in the GOES-R series is December 2014.

GOES Program Agreements. Commerce and NASA delineated responsibilities for
each agency in a 1964 Basic Agreement. In 1973, a Basic Agreement requiring a
separate Memorandum of Agreement for each major acquisition superseded the 1964
Basic Agreement. The 1973 Basic Agreement between NOAA and NASA established
that NOAA was to provide requirements and funding for the GOES Program and that
NASA was to serve as NOAA’s agent in the procurement and development of the
satellites. In 1998, NOAA and NASA revised the 1973 Basic Agreement, assigning
Goddard with the responsibility for procuring, developing, and testing GOES Program
spacecraft and instruments. NOAA maintained responsibility for the overall Program,
funding, operation of the satellite control center and data acquisition stations, and
determination of satellite replacement needs.

On May 25, 2005, the Commerce Deputy Under Secretary for Oceans and Atmosphere
and the NASA Associate Administrator for the Science Mission Directorate released a
joint memorandum, “GOES-R Roles and Responsibilities,” that briefly highlighted the
NOAA and NASA roles and responsibilities for the GOES-R Program. The agencies
planned to enter a formal agreement within 120 days of the joint memorandum that
would detail more specific agency roles and responsibilities for the GOES-R Program. 4

On March 7, 2007, the Commerce Under Secretary for Oceans and Atmosphere, who is
also the NOAA Administrator, issued a memorandum addressing a change in the
GOES-R management structure and acquisition strategy. The memorandum states that

3
    Government Accountability Office (GAO) Testimony, “Geostationary Operational Environmental
    Satellites: Further Actions Needed to Effectively Manage Risks” (GAO-08-183T, October 23, 2007),
    states that an independent review team estimated the GOES-R Program cost will grow to $9.3 billion.
4
    This was accomplished 2 years later, with the signing of the current MOU in June 2007.
                                                                                                       4



NOAA and NASA agreed to acquire elements of the Program under the auspices of an
integrated GOES-R Program Office, led by NOAA and located at Goddard. NOAA is
responsible for overall program management as well as the ground segment (Operations
Project) and associated contracts. NASA is responsible for the space segment (Flight
Project) and associated contracts. The memorandum states that NOAA and NASA
concluded this was the best approach, because it
      •    results in a direct NOAA or NASA interface with the contractor for each of the
           key elements of the GOES-R system—the spacecraft, the instruments, and the
           ground system;
      •    allows for strong NOAA oversight and control throughout the program;
      •    gives management and acquisition responsibility for the ground segment,
           including the development of the ground system, to NOAA and gives
           management and acquisition responsibility for the space segment to NASA; and
      •    allows NOAA to retain overall Program management authority and control
           without overextending available NOAA management and acquisition resources.

The oversight changes Commerce made to the GOES-R Program were because of
acquisition problems Commerce experienced with the National Polar-Orbiting
Environmental Satellite System Program. In testimony before the House Committee on
Science in September 2006, 5 the Commerce Under Secretary for Oceans and Atmosphere
stated that NOAA was implementing lessons learned in program management and
acquisition strategy into the GOES-R Program. The Commerce Under Secretary for
Oceans and Atmosphere further stated that NOAA made the changes to the program
management of GOES-R based on direction from the House Committee on Science,
reviews by the Government Accountability Office (GAO) 6 and the Commerce Inspector
General, and the Nunn-McCurdy certification process for the National Polar-Orbiting
Environmental Satellite System Program. The changes are intended to strengthen
NOAA’s oversight and control throughout the GOES-R Program.

On June 15, 2007, NOAA and NASA signed an MOU “to define a relationship between
the parties that results in the successful planning, implementation, and management of the
GOES-R Program.” Under this MOU, NASA no longer serves as the single agent in the
acquisition and development of the satellites for the Program as it did for previous GOES
series. NASA’s primary responsibility for GOES-R is to manage the development of the
Flight Project, which includes spacecraft, launch services, instruments, and satellite
integration. NOAA’s GOES-R Program Office is responsible for all program
management; acquisition strategy; program-level systems engineering and integration;
and scientific, technical, and administrative support.


5
    Available online at http://science house.gov/commdocs/hearings/full06/Sept%2029/Lauten.pdf as of
    November 2007.
6
    GAO Report, “Geostationary Operational Environmental Satellites: Steps Remain in Incorporating
    Lessons Learned from Other Satellite Programs” (GAO-06-993, September 6, 2006).
                                                                                           5



NASA Was Complying with Its Policies and Procedures
We determined that Goddard’s PMC effectively reviewed the status of the GOES-R
Flight Project as required by Goddard Procedural Requirement 1060.2C, “Management
Review and Reporting for Programs and Projects,” April 12, 2005. The Goddard
Procedural Requirement states that the Goddard PMC will schedule and conduct monthly
reviews to assess the status of each of the programs, projects, and instruments assigned to
the Center. The Goddard Procedural Requirement also states that the monthly review
will highlight significant items of progress, issues, risks, metrics, and trends, as well as
include identification and closure of open issues and options for resolving variances in
baseline cost, schedule, and technical metrics. The Goddard PMC required the GOES-R
Flight Project to present a monthly status review. We analyzed 37 monthly status
reviews briefed by the GOES-R Flight Project Manager to Goddard’s PMC. We
determined that the monthly status reviews met all the requirements of Goddard
Procedural Requirement 1060.2C by effectively identifying and communicating the
progress, issues, risks, metrics, and trends associated with the GOES-R Flight Project.

We also determined that the GOES-R Flight Project Office complied with NPR 8000.4,
“Risk Management Procedural Requirements (Revalidated February 1, 2007).”
NPR 8000.4 delineates procedural requirements for NASA projects that provide
aerospace products or capabilities and operations for space and aeronautics. NPR 8000.4
states that “the Project Manager is responsible for applying a continuous Risk
Management Plan throughout the project’s life cycle; documenting and managing risks
throughout the project’s cycle; and providing project risk status to the Program Manager,
Center Director, and governing PMCs.”

During our review, we evaluated the Risk Management Plan developed by the GOES-R
Program Office and compared it with the requirements of NPR 8000.4. We determined
that the Risk Management Plan complied with NPR 8000.4 requirements for managing
risks. The Risk Management Plan outlines management processes to be used by NASA’s
GOES-R Flight Project Office for identifying, mitigating, and reporting risks. We
evaluated the processes used by the GOES-R Flight Project Office by reviewing the
Flight Project Manager’s application of the Risk Management Plan in relation to the
development of the ABI, as this instrument was farthest along in the acquisition process
and had identified risks. The GOES-R Flight Project Office effectively applied the
provisions of the GOES-R Program Office Risk Management Plan to identify, mitigate,
and report risks. As of August 2007, the GOES-R Flight Project Office had identified
205 risks associated with the development of the ABI and reported the status of those
risks to the appropriate NOAA and Goddard PMCs.

Increased Commerce Oversight of Spacecraft Acquisitions for NASA’s GOES-R
  Flight Project Increases GOES-R Program Risks
NASA’s GOES-R Flight Project has experienced slippage in the acquisition schedule for
the spacecraft. In a May 2007 GOES-R Spacecraft Procurement Strategy Meeting, the
                                                                                                              6



GOES-R Flight Project Office presented an acquisition schedule to NOAA and
Commerce that all parties considered low risk. The schedule showed request for
proposal (RFP) release dates of July 2007 for the draft and September 2007 for the final,
with the spacecraft contract award projected for May 2008. The GOES-R Flight Project
Office’s estimate of 2½ months from release of the draft RFP to release of the final RFP
included time for NOAA’s review. The Flight Project Manager based this estimate on
personal experience with previous GOES Series Projects and the average time between
draft and final GOES-R instrument request for proposals. Based on the November 2,
2007, GOES-R Series Integrated Master Schedule, the Flight Project Office will have
7 months less than originally planned for spacecraft development and the integration of
flight instruments. The following table shows planned, actual, and estimated dates.

                                   Spacecraft Acquisition Date Slippages

                                          Draft Request for        Final Request for           Contract
                                          Proposal Release         Proposal Release             Award
Planned date                                  July 2007             September 2007            May 2008

Actual date                                 August 2007

Estimate as of November 2007
                                                                     February 2008         December 2008
 Integrated Master Schedule


The slippage occurred because of increased Commerce oversight of the GOES-R Flight
Project. As required by the June 2007 MOU, NOAA and NASA developed a draft
Management Control Plan, the most recent version dated September 15, 2007. The draft
Management Control Plan states that the GOES-R Program must ensure that an adequate
procurement strategy is in place prior to Key Decision Point (KDP) I 7 and that a single,
combined ground and space segment KDP review take place. Commerce’s KDP review
and approval process calls for top-level reviews prior to approval by the Secretary of
Commerce, as shown in the following list:

       •   Independent Review Team 8 Flight and budget review.
       •   KDP Flight briefing to NOAA National Environmental Satellite and Data
            Information System.
       •   KDP briefing to Deputy Under Secretary of Commerce for Oceans and
            Atmosphere or NOAA PMC.
       •   Independent Review Team Flight Report.
       •   KDP Flight briefing to NOAA Administrator.

7
    KDP I is referred to as KDP C/D in the Commerce OIG Report. At KDP I for the GOES-R Program,
    Commerce grants authority to proceed to the implementation (acquisition and operations) phase, which
    would allow the Operations (ground) and Flight (space) Projects to begin the source selection processes
    for the ground system and spacecraft.
8
    NOAA-established team comprising senior industry and Government space acquisition personnel.
                                                                                                  7



      •    KDP Readiness Review with Commerce Readiness Board.
      •    KDP Readiness briefing to Commerce Assistant Secretary for Administration and
            Chief Financial Officer.
      •    KDP Readiness briefing to Deputy Under Secretary of Commerce for Oceans and
            Atmosphere.
      •    KDP Readiness briefing to Secretary of Commerce.
      •    Secretary of Commerce approval for RFP release.

The preceding list shows that the final RFP for the spacecraft acquisition is not to be
released until after KDP I and approval by the Secretary of Commerce. This is contrary
to NPR 7120.5D guidance, which the June 2007 MOU stated would be the source for
GOES-R Program processes. NPR 7120.5D places KDPs at the end of a phase as a
comprehensive review performed to determine whether a program is ready to proceed to
the next phase, not as part of the process for releasing an RFP.

Commerce’s requirement that the release of the final spacecraft RFP be dependent upon
the completion of KDP I added at least 7 months to the spacecraft acquisition schedule,
although the scheduled launch date remains December 2014, which could increase
spacecraft development and instrument integration risks. As of November 2007, that
KDP review had not taken place, 9 and the GOES-R Program Office was projecting a
February 2008 final RFP release and a December 2008 contract award for the spacecraft.

The GOES-R Flight Project Office informed the NOAA and Goddard PMCs in July 2007
that the lack of approval from the GOES-R Program Office to release the draft RFP for
the spacecraft was increasing risks to the Program. On August 6, 2007, NASA’s
GOES-R Flight Project Manager issued a formal memorandum to NOAA (see
Enclosure 2), stating that the GOES-R Flight Project Office can no longer meet NOAA’s
required launch date of December 2014 with the same level of risk that was previously
accepted by the Program Office, the NOAA Independent Review Team, the Goddard
PMC, and the NOAA PMC.

The memorandum notified Commerce of the increased risks caused by the spacecraft
procurement delays. In addition, the Commerce OIG Final Inspection Report,
“Successful Oversight of GOES-R Requires Adherence to Accepted Satellite Acquisition
Practices,” addressed the application of NPR 7120.5D processes to the GOES-R
Program. Specifically, the report states that the “current life-cycle process defined for
GOES-R diverges from NPR 7120.5D.” The Commerce report recommends detailing in
the Management Control Plan how NPR 7120.5D will be used for managing and
overseeing the GOES-R Program, including deviations and the rationale for those
deviations, and that decision authority for KDP I be delegated to NOAA. NOAA
concurred with the Commerce findings and recommendations and is working with NASA
to finalize the Management Control Plan. Therefore, we made no recommendations to


9
    According to the November 14, 2007, GOES-R Flight Project Quarterly Status Review, KDP I is
    scheduled to occur in January 2008.
                                                                                    8



NASA management, and comments on the draft of this memorandum, issued
December 5, 2007, were not required.

We appreciate the courtesies and cooperation provided to the staff during this audit.
If you have questions, or would like to discuss this matter further, please contact
Mr. Raymond Tolomeo, Science and Aeronautics Research Director, at 202-358-7227 or
Mr. Tony Lawson, the Project Manager, at 301-286-6524.


   signed
Evelyn R. Klemstine

2 Enclosures

cc:
Chief Engineer
Associate Administrator for the Science Mission Directorate
Deputy Director-Technical, Goddard Space Flight Center
Director, Flight Projects Directorate
Project Manager, GOES-R Flight Project Office
Commerce Under Secretary for Oceans and Atmosphere/NOAA Administrator
Commerce Deputy Under Secretary for Oceans and Atmosphere
System Program Director, GOES Program Office, NOAA
Assistant Inspector General for Systems Evaluation, Office of Inspector General,
    Department of Commerce
                              Scope and Methodology
We performed this audit from August 2006 through November 2007 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We performed this audit at NASA Headquarters, Goddard, and Commerce. We reviewed
NPR 8000.4, NPR 7120.5D, and Goddard Procedural Requirement 1060.2C. We
reviewed past and present GOES Program memorandums of agreement and MOUs that
outlined processes and the respective agencies’ roles and responsibilities in managing the
GOES Program. In addition, we reviewed the May 25, 2005, joint memorandum of the
Commerce Deputy Under Secretary for Oceans and Atmosphere and the NASA
Associate Administrator for the Science Mission Directorate, which briefly described the
NOAA and NASA roles and responsibilities for conducting the GOES-R Program.

We conducted interviews with NASA GOES-R Flight Project personnel to discuss risk
management, critical milestone reviews, and the impact of the March 2007 change in
NOAA’s management and acquisition strategy. We interviewed Goddard PMC
personnel to discuss the review and reporting functions of the Goddard PMC. We also
attended three monthly status review presentations of the GOES-R Flight Project Office
to the Goddard PMC. We reviewed the documentation for the Monthly and Quarterly
Status Reviews held from January 2004 through January 2007, which the GOES-R Flight
Project Office used for its presentations. In addition, we reviewed all formal notes taken
by the secretary of the Goddard PMC during calendar year 2006 and documentation for
all PMC open action items from January 2004 through October 2006 to determine
whether the Goddard PMC had made any official comments or required corrective
actions for the GOES-R Flight Project.

To determine whether the GOES-R Flight Project Office had procedures and processes in
place that adequately identified, mitigated, and reported technical risks in accordance
with NPR 8000.4, we compared the GOES-R Risk Management Plan of February 12,
2007, with NPR 8000.4 requirements. We also analyzed how NASA’s Flight Project
Office identified, mitigated, and reported risks. We assessed compliance with
NPR 7120.5D by verifying that the GOES-R Flight Project Office addressed
requirements prior to allowing GOES-R instruments to proceed to the next critical
milestone review.

Use of Computer-Processed Data. To determine the number of identified risks to the
GOES-R Flight Project, we used NASA’s “Program Risk Information Management
eXchange” system. We compared the system’s database of risks with a listing of risks
reported to the Goddard PMC to ensure that the GOES-R Program accounted for risks
identified in the GOES-R monthly status reports. We did not test the database to ensure


                                                                              Enclosure 1
                                                                              Page 1 of 2
that all risks were included. However, we do not believe that such a test would have
revealed information that would have affected our findings or conclusions.

Review of Internal Controls. We identified and tested GOES-R Flight Project
acquisition processes for compliance with NASA’s policies and procedures. We
reviewed Goddard procedures for controlling GOES-R Flight Project risks. In addition,
we reviewed Goddard procedures for conducting critical milestone reviews of contractor
performance. We did not identify any NASA internal control weaknesses.

Prior Coverage. Within the past year, the Government Accountability Office (GAO)
has provided testimony to Congress and issued reports that have particular relevance to
the subject of this memorandum and Commerce has issued one report. The GAO
testimony and reports listed below can be accessed over the Internet at
http://www.gao.gov; the Commerce report, issued by the OIG’s Office of Systems
Evaluation, is not available online (see http://www.oig.doc.gov/oig/reports/001537.html).

Government Accountability Office

GAO Report, “Geostationary Operational Environmental Satellites: Progress Has Been
Made, but Improvements Are Needed to Effectively Manage Risks” (GAO-08-18,
October 23, 2007)

GAO Testimony, “Geostationary Operational Environmental Satellites: Further Actions
Needed to Effectively Manage Risks” (GAO-08-183T, October 23, 2007)

GAO Testimony, “Environmental Satellite Acquisitions: Progress and Challenges”
(GAO-07-1099T, July 11, 2007)

GAO Testimony, “Polar-Orbiting Operational Environmental Satellites: Restructuring Is
Under Way, but Challenges and Risks Remain” (GAO-07-910T, June 7, 2007)

GAO Report, “Polar-Orbiting Operational Environmental Satellites: Restructuring Is
Under Way, but Technical Challenges and Risks Remain” (GAO-07-498, April 27, 2007)

GAO Report, “Geostationary Operational Environmental Satellites: Steps Remain in
Incorporating Lessons Learned from Other Satellite Programs” (GAO-06-993,
September 6, 2006)

Department of Commerce

OIG Final Inspection Report, “Successful Oversight of GOES-R Requires Adherence to
Accepted Satellite Acquisition Practices” (No. OSE-18291, November 20, 2007)




                                                                             Enclosure 1
                                                                             Page 2 of 2
Programmatic Risk of Delaying Spacecraft Procurement




                                                  Enclosure 2
                                                  Page 1 of 2
Enclosure 2
Page 2 of 2
